Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

82269
STATE OF NEW YORK,
SS:

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 4th day of March 2020deponent served 3 copies of the within
BRIEF AMICI CURIAE OF THE AMERICAN CIVIL LIBERTIES UNION AND THE NEW YORK CIVIL
LIBERTIES UNION, IN SUPPORT OF RESPONDENTS

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Jay Alan Sekulow
Constitutional Litigation
and Advocacy Group, P.C.
1701 Pennsylvania Ave, NW, Ste. 200
Washington, DC 20006
202-546-8890
jsekulow@claglaw.com
Jerry D. Bernstein
Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020
212-885-5511
jbernstein@blankrome.com

Carey R. Dunne
New York County District Attorney's Office
One Hogan Place
New York, NY 10013
212-335-9000
dunnec@dany.nyc.gov
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on March 4, 2020, pursuant to Supreme Court
Rule 29.5(c). All parties required to be served, ha~n served.

.d . ~

Howard Daniels

c()

,

~

Sworn to me this

March 4, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01 OS6101366
in Kings County

Case Name: Trump v. Vance
Docket/Case No. 19-635

